                             SOCIAL SECURITY
                             Office of the Inspector General

                                    October 31, 2011

The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

I am pleased to provide the enclosed report, which addresses your April 14, 2011 letter
expressing concern that the Social Security Administration (SSA) was using unobligated
balances in the annual Limitation on Administrative Expenses (LAE) appropriation to
fund investments in information technology (IT) rather than to find and prevent wasteful
spending for erroneous benefits. To address this concern, we reviewed the LAE
transfer process and the IT account structure and financing process. This report
discusses

•   Congress’ original intent for providing the LAE transfer authority to SSA;
•   SSA’s LAE transfer process, including the Office of Management and Budget’s role
    in the process;
•   SSA’s IT fund account structure and financing process; and
•   SSA’s IT spending and year-end balances over the past several years.

To ensure SSA is aware of the information provided to your office, we are forwarding a
copy of this report to the Agency. If you have any questions concerning this matter,
please call me or have your staff contact Misha Kelly, Congressional and Intra-
Governmental Liaison, at (202) 358-6319.

                                          Sincerely,



                                          Patrick P. O’Carroll, Jr.
                                          Inspector General
Enclosure
cc:
Michael J. Astrue


              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT
  The Social Security Administration’s
  Limitation on Administrative Expenses
   Appropriation’s Transfer Authority

            A-15-11-01117




             October 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                      Background
OBJECTIVE
Our objective was to review information on the Social Security Administration’s (SSA)
Limitation on Administrative Expenses (LAE) appropriation’s transfer of unobligated
annual LAE funds to the no-year account for information technology (IT) investment.

BACKGROUND
The Congress authorizes an annual appropriation for the administrative costs SSA
incurs in fulfilling the terms of the Social Security Act. These funds are appropriated
under the annual LAE account. The annual LAE appropriation provides SSA with the
funds needed to administer its Old-Age and Survivors Insurance (OASI), Disability
Insurance (DI), and Supplemental Security Income (SSI) programs, and to support the
Centers for Medicare and Medicaid Services in administering its programs. See
Appendix C for definitions of key budgetary terms used in this report.

The Social Security Trust Funds, the General Fund, the Medicare Trust Funds, and
applicable user fees1 fund the annual LAE account. Section 201(g)(1)(B) 2 of the Social
Security Act requires that SSA determine the applicable administrative expenses the
Trust Funds use to administer their respective programs and the General Fund uses to
administer the SSI program. Retirement and non-SSI disability costs are charged to the
OASI and DI Trust Funds, and Medicare-related work is charged to the Health
Insurance and Supplementary Medical Insurance Trust Funds. The General Fund pays
for SSI and the Agency’s non-mission related work. SSA calculates the administrative
costs attributable to each program using its cost analysis system.

Annual LAE Budget Request and Congressional Approval

The Office of Budget (OB) reviews and adjusts the overall annual LAE budget that
includes Information Technology Systems (ITS) based on guidance from the Agency’s
executives. The Commissioner approves the annual LAE budget request. The OB
submits the Commissioner-approved annual LAE budget to the Office of Management
and Budget (OMB). OB and OMB work together to prepare SSA’s annual LAE budget
request that aligns with the President’s initiatives.




1
 Applicable user fees include SSI State Supplement User Fees and Non-attorney Representative User
Fees.
2
    42 U.S.C. § 401(g)(1)(B).



SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                    1
Each fiscal year (FY), SSA documents the agreed-upon annual budget request in its
Justification of Estimates for Appropriations Committees (also referred to as the Budget
Justification). 3 We reviewed SSA’s Budget Justifications for FYs 2010 through 2012.
The Budget Justifications provided requests for budgetary resources to fund the annual
LAE account. The Budget Justification includes, but is not limited to, LAE information
on funds available for obligation including recoveries and transfers, beginning and end-
of-year unobligated balances, the President’s E-Government Initiatives, and general
background on IT infrastructure and investments in new IT projects.4 However, the
Budget Justification does not mention the budget request for the annual LAE line items
such as ITS.

OMB submits the agreed upon annual LAE budget to the President for its review. Final
decision for SSA is included with those of other Federal agencies as part of the
President’s Budget, presented to Congress. Congress reviews the President’s budget
and enacts annual funding, including SSA’s annual LAE appropriation.

The Agency stated it intends to obligate the entire annual LAE budget. However, SSA
historically obligates approximately 99 percent of the annual LAE budget each FY.
Therefore, SSA unobligated approximately 1 percent of the annual LAE budget each
FY. Between FYs 2002 and 2010, SSA’s unobligated annual LAE budget ranged from
approximately $62 to $175 million.

Annual and No-year LAE Apportionment

Once Congress approves SSA’s annual LAE appropriation for the FY, OMB apportions
the annual LAE account in Category B line items5. The Category B line items in the
apportionment schedule vary each FY. In FYs 2006 through FY 2010, OMB
apportioned the annual LAE account into several line items including Category B Line
Items:

• Administrative Expenses,
• ITS,
• Disability Determination Services (DDS),
• Base Continuing Disability Reviews and Redeterminations,
3
  According to OMB Circular A-11, Preparation, Submission and Execution of the Budget (August 2011),
during the budget process, Section 10.5 (page 4 of Section 10) states “Agencies prepare and OMB
reviews congressional budget justification materials” and Section 22.6 (page 3 of Section 22) states “
Congressional budget justification materials must include or be structured as the performance plan
submission [and] …include additional information . . . as well as detailed descriptions of agencies’
activities and proposals at the program, project, and activity level.”
4
 SSA stated, “The amount of transfers and recoveries has been reflected in the Congressional Budget
Justification since FY 2002 and the FY 2012 budget justification provides the full budgetary amount
needed and the transfer amount.”
5
 According to OMB Circular A-11, supra, Section 120.9, Category B apportionments typically distribute
budgetary resources by activities, projects, objects, or a combination of these categories.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                          2
• Additional Continuing Disability Reviews and Redeterminations,
• Social Security Advisory Board, and
• Access to Financial Information.

For example, the apportionment request for the FY 2010 annual LAE appropriation
shows the Agency requested approximately $977 million for ITS. The Budget
Justification does not specifically mention the budget request for ITS. See Appendix F
for the FY 2010 annual LAE apportionment that SSA requested in August 2010.

In addition to an annual LAE appropriation, SSA has a no-year LAE account with funds
that are available until expended. OMB reapportions any unused no-year LAE funds
from the prior FY that SSA carried forward to the current FY. In FYs 2006 through
FY 2010, OMB apportioned the no-year LAE account into several line items including:

• ITS,
• Automation Investment Fund (AIF),
• Low Income Subsidy,
• Delegated Buildings, and
• Disaster Relief.

See Appendix G for an example of FY 2010 no-year LAE apportionment.

Transfer of Unobligated Balances from the Annual LAE Account to the No-year
LAE Account

Since FY 1996, public law has required that the unobligated balances provided for
annual LAE at the end of each FY remain available until expended to invest in IT (see
Appendix D for FYs 1996 through 2010 public laws containing this requirement). This
provision has allowed SSA to transfer millions of dollars from the expired annual LAE
accounts to the no-year LAE account for a computing network, IT, telecommunications
hardware and software infrastructure, and non-payroll administrative expenses
associated solely with these costs. In FYs 2006 through 2010, SSA’s unobligated
balances in the annual LAE accounts that were remaining at year-end and available for
transfer were from the Administrative Expenses and DDS apportionments.

From FYs 1997 to 2001 (see Appendix E), SSA transferred its unobligated balances
from its expired annual LAE accounts to its no-year LAE account for the AIF. The
purpose of AIF was to fund a state-of-the-art computing network, including related
equipment and non-payroll administrative expenses related to these costs. From FYs
2001 through 2010, SSA transferred its unobligated balances from its expired annual




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                         3
LAE accounts 6 to its no-year LAE account for ITS. The purpose of ITS was to fund IT,
telecommunications hardware and software infrastructure, and non-payroll
administrative expenses related to these costs.

Congressional Request on SSA’s LAE Transfer Process

On April 14, 2011, we received a letter from Representative Sam Johnson, Chairman,
House Subcommittee on Social Security, Committee on Ways and Means, requesting
information about SSA’s LAE transfer process. Specifically, the letter requested we
answer the following questions.

1. What was the original intent of SSA’s receiving LAE transfer authority, what amounts
   were transferred initially, and has the process changed over the years?

2. What is the Office Management and Budget’s role in the SSA LAE transfer process?

3. Over the past 2 years, how did SSA spend its IT funds generally; and specifically,
   how did it spend the LAE funds transferred to the IT investment account?

4. What were the year-end balances in the IT account over the past 5 fiscal years?

5. The SSA officials have stated that the Agency needs $196 million as an unobligated
   balance in the LAE account at the end of Fiscal Year 2011. What is the basis for
   this estimated year-end balance amount?

6. Regarding the IT fund, is there a better account structure and financing process for
   the SSA’s appropriation that is more accountable to the taxpayer?

7. Why was money diverted to the IT fund rather than being used to find and prevent
   wasteful spending for erroneous benefits?

Subsequent Events to Fieldwork

We conducted our fieldwork from April 15 through June 15, 2011. However, on June 24,
2011, after the end of our fieldwork, SSA moved responsibilities from the Office of the
Chief Information Officer (OCIO) to the Office of Systems (OS). Therefore, our
response to this request does not reflect the impact (if any) of this recent reorganization
on the LAE transfer process. Refer to Question 6 (see page 18) for a discussion of the
OCIO’s responsibility in the LAE transfer process before June 24, 2011.




6
  According to OMB Circular A-11, supra, Section 20.4(c), budget authority in the expired phase is no
longer available for new obligations but is still available for disbursement. This phase lasts 5 years after
the last unexpired year unless the expiration period has been lengthened by legislation.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                              4
                                                         Results of Review
We determined that the Agency funded its IT investment from a combined budget of the
annual LAE and no-year LAE funds. As a result, the transfer process required that SSA
monitor the IT spending closely and report the balances of prior year funds for transfer
availability. During our review, we obtained information on the following.

•     The original intent of SSA’s LAE transfer authority, amounts initially transferred, and
      whether SSA’s transfer process has changed.
•     OMB’s role in SSA’s LAE transfer process.
•     SSA’s IT expenses over the past 2 years.
•     Year-end IT account balances for past 5 years.
•     SSA’s basis for needing $196 million as an unobligated balance in the LAE at the
      end of FY 2011.
•     IT account structure and financing process.
•     SSA’s basis for transferring money to the IT fund rather than using such funds to find
      and prevent wasteful spending for erroneous benefits.

QUESTION 1: What was the original intent of SSA’s receiving LAE transfer
authority, what amounts were transferred initially, and has the process changed
over the years?

SSA stated that the original intent of the LAE transfer authority was to provide additional
funding without increasing the annual LAE appropriation. SSA initially transferred
approximately $349 million from the expired annual LAE accounts to the no-year LAE
account for AIF in FYs 1997 through 2001 (see page 7, Table 1 for details).
Additionally, nothing came to our attention to show that the transfer process has
changed since the inception of the LAE transfer authority.

Original Intent of SSA’s Receiving LAE Transfer Authority

Before FY 1990, 7 Congress included the funds for ITS-related 8 activities in the annual
LAE appropriations with amounts available until expended (no-year) or as an annual
(1 year) appropriation. For example, in FY 1985, 9 public law provided that
approximately $210 million shall remain available until expended for automatic data
processing and telecommunications activities, and in FY 1989, 10 public law stated that

7
    Also, known as automated data processing and telecommunications.
9
 Department of Health and Human Services Appropriation Act, 1985, Pub. L. No. 98-619, 98 Stat. 3305,
3317- 3318.
10
  Departments of Labor, Health and Human Services, and Education, and Related Agencies
Appropriations Act, 1989, Pub. L. No. 100-436, 102 Stat. 1680, 1695-1696.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                      5
not to exceed $170 million shall be available for automatic data processing and
telecommunications activities.

Beginning in FY 1996, 11 SSA received authority to transfer unobligated funds from the
expired annual LAE accounts to the no-year LAE account for the AIF. According to the
Agency, “. . . the original intent of the LAE transfer authority was to be able to spend
more money on automation without having to provide the full amount in new budget
authority (BA) in the appropriation.” Although the Agency did not provide supporting
documentation on the original intent of the transfer authority, we were able to locate
language contained in a Senate Report 12 stating, “However, a bill language provision
has been added specifying that funds unobligated at the end of the fiscal year remain
available until expended to augment multiyear automation initiatives.”

Amounts Transferred Since the Inception of the Transfer Authority

Since the inception of SSA’s transfer authority (FYs 1996 to 2011), the Agency has
transferred approximately $566 million to the no-year LAE account for AIF and
$1.475 billion to the no-year LAE account for ITS, for a total of $2.041 billion to the
no-year LAE account. See Appendix E for the unobligated annual LAE funds
transferred to the no-year LAE account since the inception of SSA’s transfer authority.

Transfers to the No-year LAE Account for AIF (FYs 1997 Through 2001)

See Table 1 (page 7) for the amounts SSA initially transferred from the expired annual
LAE accounts to the no-year LAE account for the AIF.




11
   The Omnibus Consolidated Rescissions and Appropriations Act of 1996, Pub. L. No. 104-134, 110
Stat. 1321-241 states “. . . that unobligated balances at the end of fiscal year 1996 not needed for the
fiscal year 1996 shall remain available until expended for a state-of-the-art computing network, including
related equipment and administrative expenses associated solely with this network . . . .”
12
     S. Rep. No. 104-236, at p. 115 (1996).


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                            6
                                               Table 1:
        Annual LAE Funds Transferred to the No-year LAE Account for the AIF in FYs 1997-2001
                                           ($ in millions)
      Annual LAE             FY the Funds Were Transferred to No-year LAE Account for AIF
     Account Funds                                          14
         Were         FY 1997      FY 1998        FY 1999         FY 2000        FY 2001         Total
      Transferred
             13
        From
        FY 1996           $50.0          $0.0            $0.0          $40.0         $38.0          $128.0
        FY 1997               --       $100.0            $0.0            $0.0        $40.9          $140.9
        FY 1998               --             --          $0.0          $14.0         $24.1           $38.1
        FY 1999               --             --              --          $0.0          $0.0           $0.0
        FY 2000               --             --              --             --       $42.0           $42.0
         Total            $50.0        $100.0            $0.0          $54.0        $145.0          $349.0

Transfers to the No-year LAE Account for AIF and ITS (FYs 2002 Through 2005)

In FY 2001, 15 Congress revised the public law to expand the scope of the uses of the
transferred funds, and, in FY 2002 SSA began transferring the unobligated funds from
the expired annual LAE accounts to the no-year LAE account for ITS. Transfers to the
no-year LAE account for the AIF continued until FY 2005 when SSA closed the FY 2000
annual LAE account. Therefore, in FYs 2002 through 2005, SSA transferred
unobligated funds from the expired annual LAE accounts to the no-year LAE account for
both the AIF and ITS.

SSA stated, “Both the AIF and ITS base budget address automation investments . . .
The AIF primarily addresses one major infrastructure investment – the creation of a
state-of-the-art computing network- while the ITS base budget addresses the balance of
the Agency’s ITS investments and ongoing information system expenses.” See Table 2
(page 8) for transfers to the no-year LAE account for AIF and ITS in FYs 2002 through
2005.

13
  The funds from the annual LAE appropriation are not available for transfer until the subsequent FY.
After the FY has closed, the annual LAE account remains open for 5 years allowing for late adjustments
and payments. FY 1996 through 2005 annual LAE appropriations had exceeded their 5-year period of
authority to disburse and were cancelled. Therefore, these funds are no longer available for transfer.
14
   The Agency did not transfer annual LAE funds to the no-year LAE account for the AIF in FY 1999 or
transfer funds from the FY 1999 annual LAE account to the no-year LAE account for the AIF in FYs 2000
and 2001.
15
   The Consolidated Appropriations Act, 2001, Pub. L. No. 106-554, 114 Stat. 2763, 2763A-68, states that
“. . . unobligated balances of funds provided at the end of fiscal year 2001 not needed for the fiscal year
2001 shall remain available until expended to invest in the Social Security Administration information
technology and telecommunications hardware and software infrastructure, including related equipment
and non-payroll administrative expenses associated solely with this information technology and
telecommunications infrastructure . . . .”


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                             7
                                              Table 2:
                   Annual LAE Funds Transferred to the No-year LAE Account
                         for the AIF and ITS in FYs 2002 Through 2005
                                          ($ in millions)
  Annual LAE                FY the Funds Were Transferred to the No-year LAE Account
   Account
  Funds were      No-year LAE
                   Account
  Transferred                     FY 2002     FY 2003          FY 2004        FY 2005        Total
                  Transferred
     From
                      for
    FY 1997                          $22.4              --               --             --     $22.4

    FY 1998           AIF              $8.2        $36.0                 --             --     $44.2

    FY 1999                          $14.0         $19.2           $19.2                --     $52.4

    FY 2000                          $21.1         $28.6            $7.9         $ 40.0        $97.6

    FY 2001                          $52.1         $10.0           $10.1         $10.0         $82.2

    FY 2002           ITS                --        $17.0           $27.9         $14.0         $58.9

    FY 2003                              --             --         $39.0         $15.0         $54.0

    FY 2004                              --             --               --      $41.0         $41.0
    Total Annual LAE Funds          $117.8        $110.8          $104.1        $120.0        $452.7
   Transferred to the No-year
  LAE Account for AIF and ITS

Transfers to the No-year LAE Account for ITS (FYs 2006 to Present)

In FY 2006, SSA began transferring unobligated funds from the expired annual LAE
accounts only to the no-year LAE account for ITS. The Agency has not requested
annual LAE funding for AIF since FY 1998. The AIF remains a separate funding stream
in the no-year LAE account, but after FY 2005, the Agency did not transfer unobligated
funds from the expired annual LAE accounts to the no-year LAE account for the AIF.
The current balance in the no-year LAE account for the AIF consists of funds that SSA
transferred in previous FYs and recoveries of prior year obligations in AIF. As of
September 30, 2010, the no-year LAE account for the AIF had approximately $2 million
remaining and available for obligation. SSA stated that “. . . after AIF expires, ongoing
costs for hardware and software acquired as AIF automation investments will be met
from the ITS base budget.” See Table 3 (page 9) for the amounts transferred to the
no-year LAE account for ITS for FYs 2006 through 2011.




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                     8
                                              Table 3:
       Annual LAE Funds Transferred to No-year LAE Account for ITS in FYs 2006 Through 2011
                                          ($ in millions)
     Annual LAE               FY the Funds Were Transferred to No-year LAE Account for ITS
      Account
     Funds Were                                                                              16           17
     Transferred    FY 2006      FY 2007      FY 2008      FY 2009     FY 2010     FY 2011        Total
        From
      FY 2001           $10.0            --           --          --          --             --      $10.0
      FY 2002           $10.0       $53.0             --          --          --             --      $63.0
      FY 2003           $10.0       $10.0         $84.5           --          --             --     $104.5
      FY 2004           $10.0       $25.0         $20.0       $40.0           --             --      $95.0
      FY 2005          $102.0       $96.0         $28.0       $10.0       $65.0              --     $301.0
      FY 2006               --        $0.0        $35.5       $60.0       $20.0        $25.0        $140.5
      FY 2007               --           --        $0.0       $60.0       $70.0        $65.0        $195.0
      FY 2008               --           --           --       $0.0       $75.0        $30.0        $105.0
      FY 2009               --           --           --          --      $50.0        $90.0        $140.0
      FY 2010               --           --           --          --          --       $85.0         $85.0
        Total          $142.0      $184.0       $168.0       $170.0      $280.0       $295.0      $1,239.0

QUESTION 2: What is the Office of Management and Budget’s role in the SSA
LAE transfer process?

SSA estimates the transfer amounts and discusses them with OMB during the budget
formulation process. OMB stated that its role in the transfer process includes approving
the transfer request after approval of SSA’s budget. Furthermore, OMB ensures the
apportionment request for the transfer amounts align with SSA's spending plan. See
the Background section (page 2) for discussion of OMB’s role in the apportionment
request for annual and no-year LAE accounts.

OMB’s Role in the LAE Transfer Process

The Agency and OMB have worked out a process where they reach an agreement on
the amount of expired annual LAE funds that will be transferred to the no-year LAE
account for ITS. During the formulation of the President's budget in the fall of each



16
  As of May 2011, the Agency had transferred $295 million from expired annual LAE accounts to the no-
year LAE account for ITS. Additionally, $275 million was rescinded in FY 2011 from the no-year LAE
account. According to the Agency, they do plan to transfer annual LAE resources before September 30,
2011 for use in FY 2012.
17
  The total amount of transfers for ITS by FY includes the unobligated amounts available at the end of
each FY and any adjustments that accrued after the close of the FY.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                             9
FY, 18 OMB works with SSA’s OB to negotiate the estimated carryover in the no-year
LAE account for ITS and transfer amounts from the expired annual LAE accounts that
will reduce the overall annual LAE budget request. However, these amounts are not
included in the Budget Justification. For example, SSA requested $11.4 billion for its
FY 2010 overall annual LAE budget. However, the estimated carryover and transfer
amounts that reduced the FY 2010 annual LAE budget request were not included in the
Budget Justification.

IT Investment Funding

The Agency’s LAE budget for ITS includes annual and no-year LAE funds. The annual
LAE budget request for ITS is funded with monies Congress appropriates annually.
Whereas, the no-year LAE budget request for ITS is funded with funds that SSA
transferred from expired annual LAE accounts. The no-year LAE account for ITS funds
includes

• carryover of the unobligated no-year balance at the end of the previous FY,
• recoveries of prior-year obligations realized in the current FY, and
• transfers of unobligated balances from the five previous expired annual LAE
  accounts.

Each year, SSA submits a request for apportionment to OMB to use annual and no-year
LAE funds. For example, in August 2010, OMB apportioned SSA approximately
$11.5 billion of the annual LAE appropriation. In this apportionment schedule, OMB
provided funding of approximately $977 million for ITS. See Appendix F for an example
of an annual LAE apportionment schedule approved in FY 2010.

See Table 4 (page 11) for the funding sources of the LAE budget for ITS in FYs 2006
through 2010.




18
   According SSA, “. . . negotiations with OMB on the transfer amount usually begins with the submission
of the Commissioner’s budget, which for the FY 2013 budget, will be this fall. Negotiations continue up to
the submission of the President’s Budget which is the following February.”


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                           10
                                               Table 4:
                        Total LAE Budget for ITS in FYs 2006 Through 2010
                                           ($ in millions)
                      No-year LAE Funding Sources for ITS
               Carryover of the
                Unobligated      Recoveries of        Transfers of   Annual LAE              Total LAE
      FYs       No-year LAE       Prior-Year       Expired Annual    Funding for             Budget for
                                                                                                   19
                Balance from      Obligations     LAE Unobligated       ITS                    ITS
                                           20
                Prior Year for     for ITS               Funds
                     ITS
     FY 2006                $69               $8                $142        $456                     $675
     FY 2007               $143               $5                $184        $481                     $813
     FY 2008               $185               $2                $168        $535                     $890
     FY 2009               $219             $17                 $170        $725                   $1,131
     FY 2010               $202             $15                 $280        $964                   $1,461

The Agency’s LAE budget for ITS increased from approximately $675 million to
$1.5 billion between FYs 2006 and 2010. The Agency stated,

         From FY 2006 to FY 2010, the LAE ITS budget increased by approximately
         $786 million ($1,461 million minus $675 million). These increases were due to
         the expansion of the agency’s IT strategy, support and maintenance. The major
         investment increases include: Infrastructure (+$242 million), Hardware &
         Software Maintenance (+$112 million), Contractor Support (+$94 million), and
         Disability Process (+$83 million). This accounts for approximately $530 million of
         the $786 million increase.

See Question 3 (page 12) for the details of the transfers regarding the spending of the
LAE account funds for IT investments in the Social Security Online Accounting and
Reporting System (SSOARS), 21 which is SSA’s accounting system.




19
  The Total LAE Budget for ITS is the approved budget for IT investment that has been apportioned by
OMB. The Agency does not allow the full amount to its components for obligation. See Table 6
(page 16) for the amounts available for obligation and the amounts not available for obligation.
20
  These recoveries of prior-year obligations are for ITS in the no-year LAE account only and are not
included in the overall recoveries for the annual LAE account.
21
  SSOARS reports the financial results of SSA activities, provides financial information for management
for use in preparing the administrative budget, and provides information to properly control SSA's assets.
SSOARS receives input from SSA Headquarters, field offices, vendors, State agencies, GSA and the
Department of the Treasury. SSOARS is integrated with other systems and has online query capabilities.



SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                           11
QUESTION 3: Over the past 2 years, how did SSA spend its IT funds generally;
and specifically, how did it spend the LAE funds transferred to the IT investment
account?

Over the past 2 years (FYs 2009 and 2010), SSA generally spent its IT funds on major
IT projects.22 However, we were unable to determine the specific projects funded with
the annual LAE funds transferred to the no-year LAE account for ITS. According to the
Agency, “SSA does not distinguish its ITS projects between Annual and X [no-year].”

The Funding of ITS Expenditures

According to SSA, all Agency payroll related to IT projects is funded from the
Administrative Expenses apportionment 23 in the annual LAE account. Based on our
review of the Agency’s financial records for FYs 2006 through 2010, we found that SSA
charged the ITS payroll to the Administrative Expenses apportionment. Furthermore,
we found that the ITS apportionment, for annual and no-year LAE accounts, funds the
following expenditures.

• Rents, communications, and utilities associated with IT.
• Hardware and software equipment.
• IT supplies and materials.
• Other services that include contractual services.

We reviewed a sample of FY 2010 ITS expenditures to ensure charges to the annual
LAE account were IT and telecommunications’ hardware and software expenses,
including related equipment and non-payroll administrative expenses associated with
the IT and telecommunications infrastructure. Based on this review, we determined that
SSA properly charged the ITS expenditures to the annual LAE account.




22
  According to OMB’s Guidance for Exhibit 300 - Planning, Budgeting, Acquisition, and Management of
Capital Assets, Section 300.4 (page 5 of 21 Exhibit 300), “. . . Major IT Investment means a program
requiring special management attention because of its importance to the mission or function of the
agency, a component of the agency, or another organization; has significant program or policy
implications; has high executive visibility; has high development, operating or maintenance costs; is
funded through other than direct appropriations; or is defined as major by the agency’s capital planning
and investment control process.” Furthermore, it states, “. . . Investments not considered “major” are non-
major.”
23
  Administrative Expenses is a Category B Line Item within the annual LAE account. The annual LAE
Administrative Expenses apportionment includes payroll, payroll benefits, training, postage, rent,
contractual services, travel, supplies, and others.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                           12
General ITS Expenditures

According to the Agency, SSA’s IT investment plan supports the Agency’s goals and
objectives identified in its Strategic Plan. OMB reviews the projects included in the
investment plan. SSA’s OMB Exhibit 53 24 documents the Agency’s IT investments,
which consist of the following four areas.

1. Financial Management Systems: IT investment in Financial Management Systems
    provides for the operation and maintenance of SSOARS.

2. Strategic Plan Mission Areas: IT investment in the Strategic Plan Mission Areas
    further supports the Agency’s strategic goals and objectives. The objectives of
    these IT investments include ensuring the availability of core business functions
    through enhanced critical systems infrastructure and modernization of existing IT
    investments; improving systems for filing claims and accessing retirement
    information; continuing automation of the DDS, including implementation of projects
    to reduce hearing office backlogs and electronic disability case processing;
    supporting the national 800-number; further automation of the Social Security card
    application process; upgrading the Interactive Video Tele-training program for SSA
    employees; and supporting Medicare initiatives.

3. IT Infrastructure and Office Automation: IT investment in Infrastructure provides
    for telephone service; videoconferencing; upgrading and maintaining hardware and
    software; deploying new technologies to safeguard personally identifiable
    information; and maintaining SSA’s data center to support critical operations and
    protect it from loss or vulnerability.

4. Enterprise Architecture and Planning: IT investment in Enterprise Architecture
    establishes a framework that identifies strategic information assets that define the
    business processes required, the technologies needed to support and operate those
    processes, and a transition strategy for implementing new technologies to respond
    to the changing needs of the Agency.

See Table 5 (page 14) for the costs of IT investment for FYs 2009 and 2010 in each
area.




24
  According to OMB Circular A-11, supra, Section 53.5 each Agency that is subject to Executive Branch
review must submit an IT investment portfolio (Exhibit 53) to OMB.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                       13
                                               Table 5:
               IT Investments by Area for FYs 2009 and 2010 (Non-Payroll Expenses)
                                          ($ in thousands)
 Areas of IT Investment                                                FY 2009             FY 2010

 Financial Management Systems                                                   $22,970      $13,157
 Strategic Plan Mission Areas:
     Core Services                                                              $82,029      $51,164
     Improve the Disability Process                                             $82,648     $104,501
     High Performing Workforce                                                  $32,001      $29,587
     Program Integrity & Public Trust                                           $24,280      $29,067
     Savings & Solvency                                                            $718       $1,032
     Hearing Process                                                             $4,928       $4,220
                              25
     Cross Cutting Activities                                                        $0      $28,114
 Total Strategic Plan Mission Areas                                            $226,604     $247,685

 IT Infrastructure and Office Automation                                       $713,260     $816,051

 Enterprise Architecture and Planning                                            $3,531       $30,927
 Totals                                                                       $ 966,365   $ 1,107,820

For FYs 2009 and 2010, the Agency fully used its annual LAE funding for ITS of
$725 million and $964 million, respectively. The no-year LAE account for ITS funded
the remainder of SSA’s IT costs. See Table 4 (page 11) for the IT funding sources and
Question 4 (page 15) for the year-end LAE balances for ITS over the past 5 FYs. The
four areas of IT investment consist of several IT projects categorized as either major or
non-major projects. Major projects comprised 89 percent of IT spending in FY 2009 and
85 percent of IT spending in FY 2010.

In FYs 2009 and 2010, SSA spent approximately 74 percent of its total IT spending in IT
Infrastructure and Office Automation area. The majority of this area consists of major
projects and includes replacement of the telephone system with Voice Over Internet
Protocol and IT Operations Assurance, which reduces the risk associated with loss or
vulnerability of SSA’s National Computer Center.

Of the Strategic Plan Mission Areas, SSA’s efforts to Improve the Disability Process
accounted for over one-third of the spending. Spending in this area included funding for
automation of the DDS and addressing ways to deliver accurate disability decisions
faster. SSA spent approximately $83 and $105 million on improving the disability
process in FYs 2009 and 2010, respectively.




25
     The Cross Cutting Activities Mission Area was added to the ITS budget in FY 2010.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                         14
Specific ITS Expenditures

Our review found that the Agency did not fund certain projects with the annual LAE
account funds for ITS and other projects with the no-year LAE account funds for ITS.
ITS spending is from the combined IT budget that includes both the no-year and annual
LAE account funds for ITS.

SSA initially charges all ITS expenses to the annual LAE account for ITS and
continuously monitors the annual LAE account’s charges for ITS. When the annual LAE
account for ITS is near full utilization, SSA transfers ITS expenditures to the no-year
LAE account to allow additional charges in the annual LAE account for ITS. SSA
stated,

       As an internal control, SSOARS will not post an obligation against an unfunded
       allowance and will not post an obligation if funds are insufficient to process the
       full charge . . . When ITS annual funding is about to be fully utilized, the ITS
       accountant transfers expenditures and, if necessary, unpaid obligations to ITS X
       [no-year] thereby allowing additional charges to post against ITS annual funds.
       At the end of the reporting period, the charges are reconciled and then allocated
       between the funding sources to ensure that ITS Annual funding is fully utilized
       and only those obligations and expenses in excess of ITS Annual funding are
       charged to ITS X [no-year].

Even though SSOARS can charge expenses to the annual and no-year LAE accounts
for ITS, SSA stated that it chose to set SSOARS to track the ITS expenses in the
annual LAE account for ITS and transfer ITS expenditures to the no-year LAE account
for ITS. SSA stated, it does not “. . . distinguish its ITS projects between Annual and X
[no-year]; therefore, we would not be able to identify which account the activity should
be charged to. Also, since at the end of the year, we require the annual account to fully
utilized before using the X [no-year] account authority, it would be very difficult to
achieve this with charges going to both accounts.”

See Question 6 (page 18) for the discussion of the Agency’s methodology for tracking
ITS expenses.

QUESTION 4: What were the year-end balances in the IT account over the past
5 fiscal years?

SSA’s “IT account” includes both no-year and annual LAE funding for ITS. For the past
5 FYs, the unobligated no-year LAE for ITS year-end balances ranged from $143 to
$385 million. See Table 6 (page 16) for the year-end balances in the “IT account” and
unobligated balances brought forward during FYs 2006 through 2010.




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                15
                                            Table 6:
                                    FYs 2006 Through 2010
                       Year-End Balances in No-year LAE Account for ITS
                                         ($ in millions)
            Source of ITS
                                  Funds         Funds for ITS                             Total
         Category B Line Item                                     Total
 FY                            Available for    Not Available                        Unobligated Year
              in the LAE                                       Obligations
                          26    Obligation      for Obligation                         End Balance
           Apportionment
         Annual LAE Account                $456                 $0          $(456)                   $0

2006    No-year LAE Account                 $90              $129            $(76)                 $143

                 Total                     $546              $129           $(532)                 $143
         Annual LAE Account                $481                 $0          $(481)                   $0
2007    No-year LAE Account                $159              $174           $(148)                 $185
                 Total                     $639              $174           $(628)                 $185

         Annual LAE Account                $535                 $0          $(535)                   $0

2008    No-year LAE Account                $141              $214           $(136)                 $219

                 Total                     $676              $214           $(671)                 $219
         Annual LAE Account                $725                 $0          $(725)                   $0
2009    No-year LAE Account                $219              $187           $(205)                 $201
                 Total                     $945              $187           $(930)                 $202
         Annual LAE Account                $964                 $0          $(964)                   $0
                                                                                                        27
2010    No-year LAE Account                $202              $295           $(112)               $385
                 Total                   $1,165              $295         $(1,075)                 $385
*Note: The dollar amounts presented in Table 6 are based on actual numbers from SSA’s Financial
Indicator Reports. However, there may be differences in the totals due to rounding.

SSA obligates its annual LAE account funds for ITS before it obligates funds from the
no-year LAE account for ITS. For that reason, SSA’s unobligated ITS balance at the
end of the each FY is from the no-year LAE account for ITS. These funds carry over to
the next FY and are available for ITS obligations until expended. For example, in
FY 2006, SSA obligated $456 million from its annual LAE account for ITS and
26
  We obtained the ITS year-end balance for annual and no-year LAE accounts in FYs 2006 through
2010 from SSA’s financial indicator reports as of September 30 each FY. In some instances, the
apportionment numbers at year-end may differ from the last approved apportionment schedule for the
annual LAE account because the Agency has reprogrammed its LAE funds before the FY ended. The
approved annual LAE apportionment stated 10 percent of annual LAE funds may be reprogrammed
between the Administrative Expenses and DDS Category B line items and/or the Administrative
Expenses and ITS Category B line items.
27
   In FY 2011, $275 million of the $385 million that was unobligated at the end of FY 2010 was rescinded
from the no-year LAE account.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                          16
$76 million from its no-year LAE account for ITS, which totals $532 million. SSA carried
over the remaining $143 million to FY 2007, and it remained in the no-year LAE account
for ITS until expended. See Table 4 (page 11), for the carryover of the unobligated no-
year LAE balance for ITS from the prior year.

Over the past 5 FYs, SSA has obligated an average of 77 percent of its LAE budget for
ITS (including both annual and no-year LAE funds for ITS), leaving an average of
23 percent of its LAE budget for ITS unobligated. The unobligated no-year LAE balance
for ITS were expired annual LAE funds that SSA transferred to the no-year LAE account
for ITS.

QUESTION 5: The SSA officials have stated that the Agency needs $196 million
as an unobligated balance in the LAE account at the end of Fiscal Year 2011.
What is the basis for this estimated year-end balance amount?

In the FY 2012 Budget Justification, SSA projected $196 million as the amount needed
for prior year adjustments. SSA further stated, “It is essential that these funds remain in
the expired LAE account (FY 2006-2010) to cover adjustments. Otherwise, SSA could
face an anti-deficiency violation.” Based on our review, we determined that $196 million
was the unobligated balance in the expired annual LAE accounts as of
December 31, 2010 for the FYs 2006 through 2010 annual LAE appropriations. The
Agency stated that the adjustments to prior-year obligations are more volatile during the
first quarter of the FY; and therefore, they chose to take a more conservative approach,
reserve the unobligated balances for upward adjustments given the uncertainty of what
would occur during the remainder of the FY, and transfer funds later in the FY.

Additionally, SSA stated, “The amount we hold back in prior years is not a set number.
A number of factors influence our decision concerning how much prior year money
needs to be retained.” SSA also stated, “We need to hold less money in reserve in the
oldest year than we do in the most recent year since the oldest year has much less time
left available for upward adjustments to obligations. Similarly, at the beginning of the
fiscal year, there is more time available for obligations than at the end of the fiscal year.”
SSA continuously monitors LAE accounts and communicates with its components
regularly regarding the validity of open obligations as the status of obligations may
change over time. Furthermore, SSA stated that recoveries of prior period obligations
are also a consideration and monitored as they may have corresponding upward
adjustments within the year.

SSA stated it maintains balances in prior years to cover any potential upward
adjustments. We found that SSA left approximately 1.2 percent of the annual LAE
appropriation unobligated at the end of each FY in the last 10 years. When SSA had a
less robust accounting system, the Agency lapsed as low as 0.3 percent in FY 1989 and
0.6 percent in FY 1990 of the annual LAE appropriation. However, since the Agency
implemented a new accounting system in FY 2004, SSA has lapsed at least 1 percent
per year.




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                               17
We found that, had SSA reviewed patterns of its prior year obligations and performed
trend analyses, it would have had ample time to identify and reallocate funds during the
FY to spend on various workloads. Based on our prior report, 28 we concluded that
“. . . early in the budget process, SSA has the opportunity to make different decisions to
ensure administrative funds are available to provide the most cost-effective use of
resources for the Agency’s growing workloads.”

QUESTION 6: Regarding the IT fund, is there a better account structure and
financing process for the SSA’s appropriation that is more accountable to the
taxpayer?

SSA stated that they could account for the transfer process in the accounting system
differently but it is too labor intensive. We believe the transparency of the process could
be improved if prior to making the transfer, the Agency would seek the explicit approval
of the oversight committee and transfer a mutually agreed upon amount from the
expired annual LAE accounts to the no-year LAE account for ITS.

We found that the Agency does not determine what projects will be funded by the
annual or no-year LAE accounts since the ITS budget is combined for funding purposes
and ITS spending is tracked in one account. While the Agency supplements the annual
LAE account for ITS with the no-year LAE account for ITS account, it stated “The
Agency tracks its ITS spending closely and this practice has not changed with receiving
the authority provided by Congress to transfer funds from prior years.”

Based on our review, we found the Budget Justification for FYs 2010 through 2012 did
not include a specific rationale for the requested transfer amount from the expired
annual LAE accounts to the no-year LAE account for ITS. The Agency provided
examples of discussions with the Congressional Budget Office (CBO) and the Senate
Committee on Appropriations in FYs 2010 and 2011. The CBO and Senate Committee
prompted these discussions regarding the balances in the no-year and annual LAE
accounts for ITS, no-year LAE carryover amounts for ITS, and the consequences of
rescinding funds from the no-year LAE account.

SSA’s Methodology for Tracking ITS Expenses

OMB apportions ITS as a Category B 29 line item on the annual and no-year LAE
apportionment schedules. See Appendix F for an example of SSA’s Category B line
item for ITS (line number 8B3) included on the apportionment schedule. Once OMB
has apportioned these funds, SSA issues funding documents to move approved LAE
funds in the accounting system for both annual and no-year LAE accounts, thus
creating the availability to incur obligations.

28
  SSA OIG, The Social Security Administration’s Use of Limitation on Administrative Expenses Fund
(A-15-10-21085), September 2010.
29
  According to OMB Circular A-11, supra, Section 120.9, Category B apportionments typically distribute
budgetary resources by activities, projects, objects, or a combination of these categories.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                        18
SSA stated, “All ITS obligations require a budget FY, common accounting number
(CAN), sub-object class (SOC), and an ITS project number. The CAN determines
which funding source the obligation is charged to (e.g., DDS, ITS) and the SOC
determines the type of charge (e.g., Rent).” Additionally, the Agency stated, “ITS
obligations are only charged to ITS CANs and the ITS account does not fund federal
payroll costs . . . The ITS account does fund costs under object class 2300, Rent,
Telecommunications and Utilities, but ITS costs in this category are primarily for
telecommunication related expenses.” However, SSA initially charges all ITS
obligations to the annual LAE account and closely monitors the account for full use of
the annual apportioned amount. When the account is near this amount, SSA transfers
some ITS expenditures to the no-year LAE account to allow additional charges to post
against the annual LAE account for ITS. According to the Agency, it chose to set
SSOARS to track the ITS expenses in one account versus both the annual and no-year
LAE accounts for ITS.

In addition, SSA stated that the current account structure is sound and it allows the
Agency “to monitor spending in a precise manner.” We found that the current account
structure does allow the Agency to monitor its ITS spending but does not allow the
Agency to initially charge ITS expenditures to either the annual LAE or no-year LAE
accounts for ITS. The transfer process requires that SSA monitor the ITS spending
closely and review balances for purposes of transfer availability.

IT Financing Process

Before June 24, 2011, OCIO was responsible for the IT financing process. OCIO
managed the ITS budget and made the final IT budget recommendations to the
Commissioner. The Deputy Commissioner of Systems (DCS) was responsible for
monitoring all development and operations included in the Agency’s IT spending plan.
During the IT budget formulation process, SSA’s components provided their IT project
plans and funding requests to DCS. SSA components submitted all IT funding requests
each FY regardless of approval in the prior years’ budget process. DCS integrated the
IT project plans and IT funding requests, developed a proposed consolidated, prioritized
IT project plan and budget and submitted them to the OCIO for review and concurrence.

DCS, Strategic Information Technology Assessment and Review (SITAR) Board, 30 and
OCIO worked together to prioritize the IT projects based on instructions from OMB and
the Agency’s strategic planning, performance plan goals, and strategic Information
Resources Management planning. The SITAR Board reviewed government and
contractors’ IT staff and overall IT funding. DCS focused on the costs associated with
the Agency’s IT hardware, software, and service requirements.



30
   Before FY 2010, SSA made investment decisions through a governing body knows as the IT Advisory
Board. According to SSA, the SITAR is a new governing process that reflects SSA’s desire to better align
its technology investments with the Agency’s strategic priorities. The SITAR Board is chaired by the
Agency’s Deputy Commissioner and includes Deputy Commissioner-level executives.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                         19
Many IT projects have a mixture of non-discretionary and discretionary costs. SSA
ranks these costs in levels that identify items that are mandatory in the IT budget and
helps prioritize funding allocations. Mandatory (or non-discretionary) items include
maintenance, continuation of efforts, new requests from the Commissioner’s directives,
audits, or legislation. Discretionary items include items that can be considered for the IT
budget after the mandatory needs are funded or can be postponed to subsequent years
or indefinitely with little or no impact on Agency’s initiatives.

On June 24, 2011, SSA moved responsibilities from the OCIO to OS. This
reorganization might affect the IT financing process as described above. Furthermore,
SSA has not advised us of any changes to its IT investment practices and the related
accounting because of the Agency’s reduction in ITS funding.

QUESTION 7: Why was money diverted to the IT fund rather than being used to
find and prevent wasteful spending for erroneous benefits?

We inquired of SSA its reason for diverting the expired annual LAE funds to the no-year
LAE account rather than being used to find and prevent wasteful spending for
erroneous benefits. SSA stated the following.

       SSA does analyze its resource use during the fiscal year, but not with the
       intention of diverting resources from program integrity (PI), quality assurance or
       any other workload operation to IT.
       At the beginning of each fiscal year SSA has plans in place to spend the full
       budget and has documented performance targets (i.e., completed claims,
       hearings, continuing disability review, redeterminations, etc), which are
       negotiated with OMB. During the fiscal year funds become available to the
       agency because projects come in lower than estimated, hiring occurs later than
       planned, or overtime use is less than budgeted.              However, we spend
       approximately 99% of our budget each year to accomplish SSA’s mission. Given
       the inevitability of legitimate increases to prior-year obligations, it is neither a
       sound nor prudent fiduciary practice to obligate an entire current fiscal year
       appropriation. In order to complete more work (PI, quality assurance or other
       work) the agency needs to fund more workyears by either hiring more people or
       using more overtime. The decision to hire more employees must take into
       consideration the budget outlook for the upcoming fiscal year, including the
       potential for operating under a continuing resolution, and if it can sustain the
       additional hires. Although the decision to fund additional overtime does not carry
       a future funding commitment, the agency must consider what capacity exists for
       additional funding.




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                  20
Unobligated Annual LAE Year-End Account Balances

The unobligated annual LAE balances at the end of each FY for FYs 2006 through
2010 ranged from approximately $93 to $140 million. While the funds were in the
annual LAE account, they could have been used for hiring. However, once the funds
were transferred to the no-year LAE account for ITS, the funds could only be used for IT
investments. Based on our review, we identified the amount of funds transferred to the
no-year LAE account for ITS over the past 6 FYs (see page 9, Table 3 for the
transferred amounts).

In a prior report, 31 we illustrated how SSA could use $25 million of the current FY
obligated annual LAE funds to improve the integrity and/or service levels of the Agency.
We provided an illustration for FYs 2004 through 2008. We found that “In any of those
years, the Agency could have obligated additional funds to complete more CDRs and/or
redeterminations, thereby generating tangible program savings. Given the increased
workload demands facing the Agency, careful consideration should be given to using
unobligated funds for these program integrity and disability service activities.”




31
  SSA OIG, The Social Security Administration’s Use of Limitation on Administrative Expenses Fund
(A-15-10-21085), September 2010.


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                        21
                                                               Conclusions
SSA is transferring the unobligated funds from the expired annual LAE accounts in
accordance with the language of its annual appropriation set forth in public law.
However, the amount of annual LAE funds unobligated and available for transfer to the
no-year LAE account for ITS varies (for example, SSA’s unobligated annual LAE
balance was between approximately $93 and $140 million in FYs 2006 through 2010).
Furthermore, before the transfer, the Agency does not notify Congress of its rationale
for transferring specified amounts or the need to leave certain amounts unobligated in
expired annual LAE accounts.

The Agency stated that leaving approximately 1 percent in the annual LAE appropriation
per year is reasonable to avoid an Anti-Deficiency Act violation. We understand that it
is neither sound nor prudent practice to obligate an entire FY appropriation; however,
our review of historical trends would indicate that a lower percentage is supportable by
actual experience. This would then allow SSA to increase its funding to other Agency
workloads such as disability and program integrity workloads.

Additionally, we believe the transparency of the process could be improved if, before
making the LAE transfer, the Agency notified Congress of its intentions and its reasons
for leaving certain amounts unobligated in annual LAE accounts.




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                         22
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Definitions of Key Budgetary Terms Used in the Report
APPENDIX D – Fiscal Years 1996 Through 2010 Limitation on Administrative Expenses
             Appropriations
APPENDIX E – Unobligated Annual LAE Funds Transferred to the No-year LAE
             Account for AIF and ITS
APPENDIX F – SF-132 Apportionment and Reapportionment Schedule for FY 2010
             Annual LAE Funds
APPENDIX G – SF-132 Apportionment and Reapportionment Schedule for FY 2010
             No-year LAE Funds




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)
                                                                       Appendix A

Acronyms
    AIF                Automation Investment Fund
    CAN                Common Accounting Number
    CBO                Congressional Budget Office
    CDR                Continuing Disability Review
    DCO                Deputy Commissioner of Operations
    DCS                Deputy Commissioner of Systems
    DDS                Disability Determination Services
    DI                 Disability Insurance
    FY                 Fiscal Year
    IT                 Information Technology
    ITS                Information Technology Systems
    LAE                Limitation on Administrative Expenses
    OASI               Old-Age and Survivors Insurance
    OB                 Office of Budget
    OCIO               Office of the Chief Information Officer
    OIG                Office of the Inspector General
    OMB                Office of Management and Budget
    OS                 Office of Systems
    PI                 Program Integrity
    Pub. L. No.        Public Law Number
    SF                 Standard Form
    SITAR              Strategic Information Technology Assessment and Review
    SSA                Social Security Administration
    SOC                Sub-Object Class
    SSI                Supplemental Security Income
    SSOARS             Social Security Online Accounting and Reporting System
    U.S.C.             United States Code



SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)
                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable laws and pertinent sections of the Social Security
    Administration (SSA) Accounting Manual related to the Limitation on Administrative
    Expenses (LAE) appropriation.

•   Interviewed personnel from the Office of Management and Budget (OMB) to
    determine their roles in SSA’s LAE transfer process.

•   Interviewed personnel from SSA’s Office of Budget to obtain

          o the original intent of the transfer authority;
          o the initial amounts transferred from the expired annual LAE accounts to
            the no-year LAE account; and
          o an explanation for money transferred to the information technology (IT)
            fund rather than being used for program integrity work.

•   Interviewed personnel from SSA’s Offices of the Chief Information Officer and
    Systems to determine

          o how SSA spent its IT funds over the past 2 years;
          o how SSA spent the LAE transferred amounts to the IT investment
            account; and
          o the current financing process for the IT fund.

•   Interviewed personnel from SSA’s Office of Finance to obtain

          o ITS year-end balances over the past 5 fiscal years;
          o an explanation and basis for the need to have $196 million as an
            unobligated balance in the LAE account at the end of FY 2011;
          o the current account structure for the IT fund;
          o LAE’s annual unobligated balances;
          o LAE’s recoveries of prior year obligations;
          o LAE’s annual upward adjustments; and
          o LAE’s no-year transfers.




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                        B-1
•   Reviewed the Standard Form (SF) 132 – Apportionment and Reapportionment
    Schedule – for SSA’s annual and no-year LAE accounts in FYs 2006 through 2010.

•   Reviewed the SF 133 – Report on Budget Execution and Budgetary Resources – for
    LAE’s annual unobligated balances and upward adjustments
•   Obtained the detailed transactions by sub-object class for LAE Information
    Technology Systems (ITS) for FYs 2009 and 2010.

•   Reviewed a randomly selected sample of 45 transactions that were made in
    FY 2010 to verify that the charges to both the annual and no-year LAE accounts for
    ITS were for IT and telecommunications hardware and software infrastructure,
    including related equipment and non-payroll administrative expenses associated
    solely with this information technology and telecommunications infrastructure as
    defined in public law.

We conducted our work at SSA Headquarters in Baltimore, Maryland, from April 15,
through June 15, 2011. We determined that the data used in this report were
sufficiently reliable given the review objective and their intended use. We conducted
our review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                      B-2
                                                                                 Appendix C

Definitions of Key Budgetary Terms Used in the
Report1

                         Budget authority that is available for obligation during only 1 fiscal year
Annual Budget
                         or less.
Authority
(Appropriation)

                         An Anti-Deficiency Act violation occurs when one or more of the
                         following happens: overobligation or overexpenditure of an
                         appropriation or fund account (31 U.S.C. § 1341(a)); entering into a
                         contract or making an obligation in advance of an appropriation, unless
Anti-Deficiency
                         specifically authorized by law (31 U.S.C. § 1341(a)); acceptance of
Act Violation
                         voluntary service, unless authorized by law (31 U.S.C. § 1342); or
                         overobligation or overexpenditure of (1) an apportionment or
                         reapportionment or (2) amounts permitted by the administrative control
                         of funds regulations (31 U.S.C. § 1517(a)).
                         A distribution made by OMB of amounts available for obligation in an
                         appropriation or fund account into amounts available for specified time
                         periods, program, activities, projects, objects, or any combination of
Apportionment
                         these. The apportioned amount limits the obligations that may be
                         incurred. An apportionment may be further subdivided by an agency into
                         allotments, sub-allotments, and allocations.
                         A provision of law authorizing the expenditure of funds for a given
                         purpose. Usually, but not always, an appropriation provides budget
Appropriation
                         authority.

                         Authority provided by law to incur financial obligations that will result in
                         outlays. Specific forms of budget authority include appropriations,
Budget Authority
                         borrowing authority, contract authority, and spending authority from
                         offsetting collections.




1
  We obtained the majority of definitions from OMB Circular No. A-11 (Page 3, 13, 15 and 17 of
Section 20, Page 8 of Section 130 and Page 6 of Appendix F); however, the allotment and allowance
definitions were obtained from the U.S. Department of Health and Human Services’ Food and Drug
Administration Staff Manual Guide (Page 1 and 14). The Anti-Deficiency Act Violation definition was
taken from the Government Accountability Office’s Glossary of Terms Used in the Federal Budget
Process (GAO-05-734SP, page 12, September 2005).


SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                                     C-1
                       During this time, the budget authority is no longer available for new
                       obligations but is still available for disbursement. This phase lasts 5
                       years after the last unexpired year unless the expiration period has been
Expired Phase
                       lengthened by legislation. Specifically, you may not incur new
                       obligations against expired budget authority, but you may liquidate
                       existing obligations by making disbursements.
                       The language for a specific appropriation of budget authority or the
No-year Budget
                       authorization of the appropriation may make all or some portion of the
Authority
                       amount available until expended. That means you can incur obligations
(Appropriation)
                       against it indefinitely.
                       The amount of cancellations of, or downward adjustments to unpaid
Recoveries of prior    obligations incurred in prior years.
year obligations

                       During this time period the budget authority is available for incurring
                       "new" obligations. You may make "new" grants or sign "new" contracts
Unexpired phase
                       during this phase and you may make disbursements to liquidate the
                       obligations.
                       The cumulative amount of budget authority that is not obligated and that
                       remains available for obligation under law.
Unobligated balance


                       Upward adjustments of obligations reduce unobligated balances.
Upward Adjustments
of prior recorded
obligations




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)                              C-2
                                                                        Appendix D

Fiscal Years 1996 Through 2010 Limitation on
Administrative Expenses Appropriations
Since Fiscal Year (FY) 1996, Public Laws conveying the Agency’s annual administrative
expense appropriation have provided that the unobligated funds from the expired
annual LAE accounts remaining at the end of each FY should remain available until
expended. See the Table below for public law references for FYs 1996 through 2010.

 FYs     Pub. L. No              Name of Public Law                   STAT Reference

1996      104-134     Omnibus Consolidated Rescissions and       110 Stat. 1321, 1321-240,
                      Appropriations Act of 1996                 241
1997      104-208     Omnibus Consolidated Appropriations Act,   110 Stat. 3009, 3009-266,
                      1997                                       267
1998       105-78     Departments of Labor, Health and Human     111 Stat. 1467, 1513, 1514
                      Services, and Education, and Related
                      Agencies Appropriations Act, 1998
1999      105-277     Omnibus Consolidated and Emergency         112 Stat. 2681, 2681-382,
                      Supplemental Appropriations Act, 1999      383
2000      106-113     Consolidated Appropriations Act, 2000      113 Stat. 1501, 1501A-271,
                                                                 272
2001      106-554     Consolidated Appropriations Act, 2001      114 Stat. 2763, 2763A-67,
                                                                 68
2002      107-116     Departments of Labor, Health and Human     115 Stat. 2177, 2216, 2217
                      Services, and Education, and Related
                      Agencies Appropriations Act, 2002
2003       108-7      Consolidated Appropriations Resolution,    117 Stat. 11, 341, 342
                      2003
2004      108-199     Consolidated Appropriations Act, 2004      118 Stat. 3, 274
2005      108-447     Consolidated Appropriations Act, 2005      118 Stat. 2809, 3161, 3162
2006      109-149     Departments of Labor, Health and Human     119 Stat. 2833, 2877, 2878
                      Services, and Education, and Related
                      Agencies Appropriations Act, 2006
2007       110-5      Revised Continuing Appropriations          121 Stat. 8, 9, and 37
                      Resolution, 2007
2008      110-161     Consolidated Appropriations Act, 2008      121 Stat 1844, 2206, 2207

2009       111-8      Omnibus Appropriations Act, 2009           123 Stat. 524, 800, 801
2010      111-117     Consolidated Appropriations Act, 2010      123 Stat. 3034, 3277, 3278




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)
                                                                                                                                                                                                   Appendix E
Unobligated Annual LAE Funds Transferred to the No-year LAE Account for AIF and ITS
Since the inception of SSA’s transfer authority (FYs 1996 to 2011), the Agency has transferred approximately $566 million to the no-
year LAE account for the AIF and $1.475 billion to the no-year LAE account for ITS, for a total of $2.041 billion to the no-year LAE as
shown below:
                                                                           Table:
                                Annual LAE Funds Transferred to No-year LAE Account for AIF and ITS in FYs 1997 through 2011
                                                                       ($ in millions)
                                                                       FY Funds Were Transferred to the No-year LAE Account for AIF and ITS

Annual LAE
                  IT Funding



                               FY 1997



                                           FY 1998


                                                      FY 1999


                                                                 FY 2000


                                                                             FY 2001



                                                                                         FY 2002



                                                                                                     FY 2003



                                                                                                                 FY 2004



                                                                                                                             FY 2005



                                                                                                                                         FY 2006



                                                                                                                                                     FY 2007



                                                                                                                                                                 FY 2008



                                                                                                                                                                             FY 2009



                                                                                                                                                                                         FY 2010



                                                                                                                                                                                                      FY 2011
Appropriated
Funds Were                                                                                                                                                                                                       Total
 Transferred
    From
FY 1996          AIF           $50.0       $0.0      $0.0       $40.0       $38.0                                                                                                                                $128.0
FY 1997          AIF                     $100.0      $0.0        $0.0       $40.9       $22.4                                                                                                                    $163.3
FY 1998          AIF                                 $0.0       $14.0       $24.1        $8.2       $36.0                                                                                                         $82.3
FY 1999          AIF                                             $0.0        $0.0       $14.0       $19.2       $19.2                                                                                             $52.4
FY 2000          AIF                                                        $42.0       $21.1       $28.6        $7.9       $40.0                                                                                $139.6
Subtotal - AIF                 $50.0     $100.0      $0.0       $54.0      $145.0       $65.7       $83.8       $27.1       $40.0                                                                                $565.6

FY 2001          ITS                                                                    $52.1       $10.0       $10.1       $10.0       $10.0                                                                      $92.2
FY 2002          ITS                                                                                $17.0       $27.9       $14.0       $10.0       $53.0                                                         $121.9
FY 2003          ITS                                                                                            $39.0       $15.0       $10.0       $10.0       $84.5                                             $158.5
FY 2004          ITS                                                                                                        $41.0       $10.0       $25.0       $20.0       $40.0                                 $136.0
FY 2005          ITS                                                                                                                   $102.0       $96.0       $28.0       $10.0       $65.0                     $301.0
FY 2006          ITS                                                                                                                                 $0.0       $35.5       $60.0       $20.0        $25.0        $140.5
FY 2007          ITS                                                                                                                                             $0.0       $60.0       $70.0        $65.0        $195.0
FY 2008          ITS                                                                                                                                                         $0.0       $75.0        $30.0        $105.0
FY 2009          ITS                                                                                                                                                                    $50.0        $90.0        $140.0
FY 2010          ITS                                                                                                                                                                                 $85.0         $85.0
Subtotal - ITS                                                                          $52.1       $27.0       $77.0       $80.0      $142.0      $184.0      $168.0      $170.0      $280.0       $295.0      $1,475.1

Total                          $50.0     $100.0      $0.0       $54.0      $145.0      $117.8      $110.8      $104.1      $120.0      $142.0      $184.0      $168.0      $170.0      $280.0       $295.0      $2,040.7




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)
                                                               Appendix F

SF-132 Apportionment and Reapportionment Schedule for
FY 2010 Annual LAE Funds




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)        F-1
SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)   F-2
                                                               Appendix G

SF-132 Apportionment and Reapportionment
Schedule for FY 2010 No-year LAE Funds




SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)           G-1
SSA’s LAE Appropriation’s Transfer Authority (A-15-11-01117)   G-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
